Inspection Report No. OIG-INS-08-00-05: Accounting and Reporting Systems in the Seattle Regional Office
Inspection Report No. OIG-INS-08-00-05 Accounting and Reporting Systems in the Seattle Regional Office
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General
Memorandum
July 6, 2000
To: Paul Eggert
Regional Director, Region 19
From: Jane E. Altenhofen
Inspector General
Subject: Inspection Report No. OIG-INS-08-00-05: Accounting and
Reporting Systems in the Seattle Regional Office
This inspection was conducted in conjunction with our audit of the
National Labor Relations Board's Fiscal Year 1999 accounting and reporting
systems. We selected four Regional Offices, including Region 19, the
Seattle Regional Office (Seattle), on a judgmental basis. Our objective
was to review functions that could affect the Agency's ability to prepare
audited financial statements including financial management, backpay, time
and attendance (T&A), and capitalized and sensitive property.
We did not identify anything adversely impacting the Agency's ability
to prepare audited financial statements based upon Seattle's financial
management. We also determined that procedures provided reasonable
assurance that the management of backpay meets Agency objectives.
We did, however, identify several reportable issues. The official
inventory of computer equipment and one maintained by Seattle were not in
agreement, and neither inventory accurately identified what equipment was
assigned to Seattle or the location of equipment within the office.
Documentation supporting written approval of flex-time and compressed
schedules was not maintained. Support staff approved leave taken by
professional employees, and advance sick leave was not granted in
accordance with Agency policy. Compensatory time was not regularly
approved by supervisors, and was not recorded in the Agency's payroll
system. Bi-weekly T&A reports were not initialed by the employee,
timekeeper, or supervisor.
Scope
We interviewed responsible personnel to identify procedures relating to
financial management, the collection and distribution of backpay, controls
over capitalized and sensitive property, and the administration of T&A
practices. We reviewed applicable documentary evidence and performed a
physical inventory of capitalized and sensitive property, including all
computer equipment.
Capitalized and Sensitive Property
General Accounting Office Standards for Internal Control in the
Federal Government, updated in November 1999, call for accurate and
timely recording of transactions and events. Capitalized property
consisted of one photocopy machine. Sensitive property included computer
equipment, non-capitalized photocopy equipment, one television, and two
video cassette recorders. We found that records accurately reflected
capitalized and non-computer related sensitive property.
The official inventory of computer equipment and one maintained by
Seattle were not in agreement, and neither accurately identified what
computer equipment was assigned to Seattle or the location of equipment
within the office. Both inventories included central processing units,
monitors, and printers; and both identified the name of the employee
assigned the equipment, a description of the equipment, serial number,
and, in most instances, a bar code number for each item. We found:
12 laptop computers and 10 related printers were not on the official
inventory. The office manager maintained a separate listing and sign-out
sheets for laptop computers;
2 file servers and related monitors were not on either the official
inventory or the one maintained by Seattle;
14 items were included on the official inventory but were not on
Seattle's inventory;
19 items, including 16 printers received in March 2000, were included
on Seattle's inventory but were not on the official inventory;
39 items, including 12 printers to be excessed, were observed during
our physical inventory but were not on Seattle's inventory; and
7 items were not in the location identified in Seattle's inventory.
The computer maintenance contractor did not maintain records
identifying computer equipment sent for repair in cases when the equipment
was to be returned, as opposed to replaced. Contractor representatives
agreed to develop procedures to properly inventory computer equipment.
Maintaining Time and Attendance Records
General Accounting Office Policy and Procedures Manual for Guidance
of Federal Agencies, Title 6 - Pay, Leave, and Allowances (Title 6),
dated March 22, 1996, states that documents supporting T&A should be
completed and maintained. Examples of such documents include those for
establishing (1) work schedules, (2) flexiplace arrangements, (3) leave,
(4) overtime, (5) compensatory time, and (6) credit hours.
Work Schedules
Seattle maintained a work schedule for professional and clerical
employees. This schedule did not document supervisory approval. In
addition, documentation to work a compressed or flex-time schedule was not
consistently maintained. Documentation did not exist for 7 of 28 employees
working either a compressed or flex-time schedule.
Employees in Seattle were allowed a one hour lunch period, half of
which was in a pay status. 5 U.S.C. § 6101 established a 40-hour work
week for Federal employees. The Office of Personnel Management reaffirmed
this in guidance which states that Agencies are not allowed to routinely
permit employees to work less than 80 hours in a pay period, and hour long
meal breaks, half of which is in a pay status are not authorized.
Flexiplace Arrangements
Documentation supporting work-at-home agreements for Seattle employees
was maintained in accordance with the applicable union agreements.
Leave Slips
Seattle consistently used Standard Form 71 to document sick and annual
leave usage. Instead of supervisors, the Office Manager or Assistant
Office Manager approved leave usage of less than 8 hours by professional
employees.
Advance Sick Leave
Agency policy requires that an employee submit medical certification
when requesting advance sick leave. The Regional Director can approve up
to 4 days. For 5 or more days, the Regional Director must submit a
memorandum to the Division head justifying the advance. The Division head
is to respond either approving or disapproving the request.
We identified 5 employees with advance sick leave balances and reviewed
26 related transactions to determine whether documentary evidence was
maintained and approval was granted in accordance with Agency policy. Two
employees were advanced 5 or more days. Only 1 of the 26 transactions was
supported by a medical certificate. Advance sick leave of five days or
more was not supported by a memorandum to, or approval by, the Division
head.
Advance Annual Leave
Advance annual leave may not be advanced in excess of what the employee
could accrue by the end of the pay year. We reviewed all advance annual
leave balances and determined that leave was not advanced in excess of the
amount allowed.
Other Time
Compensatory time was neither recorded into the Agency's payroll system
nor regularly approved by the employees' supervisor. Instead, compensatory
time was tracked by the employee on multi-colored forms that were to be
visible on the employees' desk and available for management review.
Management stated that employees were contesting whether the forms even
need to be readily available for management review.
Overtime and credit hours were not used.
Review and Approval of T&A Reports
Title 6 states that review and approval of T&A reports should be
made by the official, normally the immediate supervisor, most
knowledgeable of the time worked and absence of the employee. Since at
least March 1992, when Administrative Policy Circular (APC) 92-4 was
issued, Agency policy requires employees, timekeepers, and supervisors to
initial hard copy T&A reports. This policy was reaffirmed in APC 98-01
which was issued in response to an OIG finding that employees,
timekeepers, and supervisors frequently did not initial T&A reports as
required.
T&A reports, as a matter of practice, were not initialed by the
employee, timekeeper, or supervisor. We reviewed 100 T&A reports
related to our testing of annual and sick leave transactions and found
that none of them were initialed by the employee or timekeeper and only 5
were signed by the supervisor.
This review was done in accordance with the Quality Standards for
Inspections issued by the President's Council on Integrity and Efficiency.
cc: Richard A. Siegel